No. __________

IN THE
SUPREME COURT OF THE UNITED STATES
BRIAN KIRK MALPASSO and MARYLAND STATE
RIFLE AND PISTOL ASSOCIATION, INC.,
Applicants,
v.
WILLIAM M. PALLOZZI, in his Official
Capacity as Maryland Secretary of State Police,
Respondent.
On Application for an Extension of Time Within Which
To File a Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
APPLICATION TO THE HON. JOHN G. ROBERTS, JR.
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
John D. Ohlendorf
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
Counsel for Applicants
July 11, 2019

CORPORATE DISCLOSURE STATEMENT
Maryland State Rifle and Pistol Association, Inc. has no parent corporation, and there is
no publicly held corporation that owns 10% or more of its stock.

Pursuant to Rules 13.5 and 22, Applicants Brian Kirk Malpasso and Maryland State Rifle
and Pistol Association, Inc. respectfully move for an extension of time granting an additional 60
days in which to file a petition for writ of certiorari to the United States Court of Appeals for the
Fourth Circuit in Malpasso v. Pallozzi, No. 18-2377. The jurisdiction of this Court is based on 28
U.S.C. § 1254(1). The opinion for which Applicants intend to seek the writ, a copy of which is
included as Exhibit A, was filed on April 29, 2019. Under the ordinary timing requirements in
Rule 13.1, Applicants’ petition is due on July 29, 2019. With the additional 60 days Applicants
are requesting, the petition would be due on September 27, 2019. In support of their request,
Applicants state as follows:
1.

Applicants’ counsel in this matter are heavily engaged, during the third and fourth

weeks of July, in conducting pretrial discovery and taking and defending numerous depositions
in connection with a constitutional challenge to Vermont’s ban on certain ammunition
magazines, Vermont Federation of Sportsmen’s Clubs v. Birmingham, No. 224-4-18 (Vt. Sup.
Ct.). Applicants’ counsel of record, David H. Thompson, will also be consumed during much of
July and August defending against a challenge to North Carolina’s election laws, Holmes v.
Moore, No. 18-CVS-15292 (N.C. Sup. Ct.), which is proceeding on an expedited schedule due to
the plaintiffs’ request for preliminary injunctive relief. Mr. Thompson also has two briefs due
before the first week of September in 111 West 57th Investment LLC v. 111 West 57th Property
Owner LLC, No. 653067/2019 (N.Y. Sup. Ct. N.Y. Cnty.), and an oral argument before the
Second Circuit on August 20th in 111 West 57th Investment LLC v. 111 West 57th Sponsor LLC,
No. 18-3480 (2d. Cir.).
2.

The Fourth Circuit’s decision presents substantial issues of law, including (1)

whether and to what extent the Second Amendment protects the right to carry a firearm outside

1

the home for self-defense, (2) whether a State may deny the exercise of the right to carry a
firearm outside the home to ordinary citizens by conditioning its exercise on a showing of a
special, heightened need to carry a firearm, and (3) whether the Fourth Circuit’s decision to
apply intermediate scrutiny to the challenged restrictions is consistent with this Court’s decision
in District of Columbia v. Heller, 554 U.S. 570 (2008).
3.

The importance of these issues is underscored by the fact that the decision below,

in answering some or all of these questions, departed from the directly contrary conclusions of
the D.C. Circuit in Wrenn v. District of Columbia. Applicants request an additional 60 days to
better enable counsel to prepare a petition that adequately presents these important legal issues to
this Court for consideration.
4.

Because this case comes to this Court on the Fourth Circuit’s affirmance of the

District Court’s grant of dismissal in favor of the government, the challenged restrictions are
currently being enforced, and Respondents will therefore suffer no prejudice from the 60-day
extension Applicants are requesting.
For the foregoing reasons, Applicants hereby respectfully request an extension of time up
to and including September 27, 2019, for the filing of a petition for writ of certiorari in this case.
Dated: July 11, 2019

Respectfully submitted,
s/David H. Thompson
David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
John D. Ohlendorf
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com
Counsel for Applicants
2

